No. 20-888
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ABDUL RAZAK ALI, PETITIONER
v.
JOSEPH R. BIDEN, JR., PRESIDENT
OF THE UNITED STATES, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENTS IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 12th day of April 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 6,212 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
April 12, 2021

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
April 12, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0888
ALI, ABDUL RAZAK
JOSEPH R. BIDEN, PRESIDENT OF THE UNITED
STATES, ET AL.

SHAYANA DEVENDRA KADIDAL
CENTER FOR CONSTITIONAL RIGHTS
666 BROADWAY
7TH FLOOR
NEW YORK, NY 10012
212-614-6438
KADIDAL@CCRJUSTICE.ORG
ROBERT S. SMITH
FRIEDMAN KAPLAN SEILER & ADELMAN
LLP
7 TIMES SQUARE
NEW YORK, NY 10036
212-833-1100
RSMITH@FKLAW.COM

